3/9/2021

Mission Lane Cash Back Program Terms
Welcome to the Mission Lane Cash Back Program.
Please read and retain these Program Terms. Under the Program, if You are approved for the Card, Your Card is automatically enrolled in the Program,
while your Card account remains in Good Standing.
By using the Card, You agree to be bound by these Program Terms in addition to the Cardholder Agreement that is provided upon approval for the Card.
In the event of a conflict between the Cardholder Agreement and these Program Terms, the Cardholder Agreement will govern, except the Program
Terms will govern in any matter relating to the Program. We may change the Program Terms at any time. If we do, we will notify you of the changes and
post any changes to the Program Terms on the Website. It is Your responsibility to review the Program Terms on the Website for a description of any
such changes. Capitalized words and phrases used in these Program Terms have the meanings set forth in the section of these Program Terms entitled
"Definitions," below.
1. Eligibility and Enrollment
When You receive Your Card, Your Card Account is automatically enrolled in the Program and will remain enrolled so long as You continue to reside in
the United States and keep Your Card Account in Good Standing.
2. Cash Back Overview
2(a). Earning Cash Back
Under the Program, you will earn Cash Back Credit for Net Qualifying Purchases. The amount of Cash Back Credit you will earn for each calendar
month is one percent (1%) of the dollar amount of your Net Qualifying Purchases posted to your Card Account during that calendar month, minus any
negative Cash Back Credit balance that is created due to credits posted to your Card Account, as further explained in Section 3(a) of these Program
Terms, below.
Once you activate Your Card, You will begin accruing 1% Cash Back on all Qualifying Purchases made on Your Card. Generally, there is no maximum
annual limit on the amount of Cash Back Credit You can earn, as long as Your Card Account remains open and in Good Standing and You remain
eligible for participation in the Program.
Qualifying Purchase amounts include tax and are rounded to the nearest whole dollar amount, then multiplied by 1% to determine the amount of Cash
Back earned. For example, if You have a Qualifying Purchase of $99.85, You will earn $1.00 in Cash Back Credit.
2(b). Crediting Cash Back
Cash Back Credit is calculated based on Net Qualifying Purchases you make during a calendar month. Any Cash Back Credit You earn during a
calendar month will be applied automatically as a credit to Your Card Account on the seventh day of the next calendar month, or if the seventh day falls
on a weekend or holiday, the next business day thereafter. The amount of Cash Back Credit will be shown under the transactions section on your billing
statement for the billing cycle that includes the date such Cash Back Credit is applied. Depending on the date(s) You make Qualifying Purchase(s), Cash
Back Credit for any given Qualifying Purchase may take up to two (2) months to appear on your billing statement. Cash Back Credit may result in a
1/4

3/9/2021

credit balance on Your Card Account. We may also award bonus Cash Back Credit for certain transactions and/or promotions from time to time in Our
sole discretion (details will be provided with such offers).
3. Cash Back Earning Limitations and Forfeiture
3(a). Cash Back Earning Limitations
Because Your Cash Back Credit is calculated based on Net Qualifying Purchases, the amount of Your Cash Back Credit will be reduced by any credits
posted to Your Card Account for returns, chargebacks or any other adjustments. A negative Cash Back Credit balance will occur if the amount of these
credits posted to Your Card Account in a calendar month exceed the amount of Net Qualifying Purchases you make in that calendar month.
If Your Card Account has a negative Cash Back Credit balance at the end of a calendar month and You make Net Qualifying Purchases during a
subsequent month, We will subtract the amount of such negative Cash Back Credit in calculating the amount of Cash Back Credit earned in such
subsequent month, as explained in Section 2(a) of these Program Terms, above.
You will not earn Cash Back Credit for any transactions made with a lost, canceled, stolen, or fraudulent Card. You will not earn Cash Back Credit in or
after any month in which (1) You file for bankruptcy, (2) You or We close Your Card Account; (3) You fail to comply with the Cardholder Agreement or
any other agreements with Us, (4) We believe that You have engaged in fraudulent activity related to Your Card Account or the Program, (5) You engage
in activities prohibited under the Cardholder Agreement; or (6) You are disqualified from participation in the Program pursuant to Section 5 of these
Program Terms, below. You will not earn Cash Back Credit for any calendar month during which you are delinquent in making payments on Your Card
Account, or during which your Card Account is not in Good Standing. If Your Card Account is no longer in Good Standing, any prior accrued Cash
Back amount will not be credited to Your balance until Your Card Account status returns to Good Standing.
Except for the Cash Back Credit applied to your Card Account and reflected on your statement balance, Cash Back Credit has no cash value or other
value, and may be used only as described in these Program Terms. Cash Back Credit cannot be assigned, transferred, gifted, sold, attached, pledged or
bartered under any circumstance, including without limitation in case of disability or death, by operation of law or in connection with a domestic
relations or other legal dispute.
3(b). Forfeiture of Cash Back Credit
Any Cash Back Credit earned will be forfeited if, before such Cash Back Credit is applied to your Card Account, (1) You file for bankruptcy, (2) You or
We close Your Card Account; (3) You fail to comply with these Program Terms, the Cardholder Agreement or other agreements with Us, (4) We believe
that You have engaged in fraudulent activity related to Your Card Account or the Program, (5) You engage in activities prohibited under the Cardholder
Agreement, or (6) You are disqualified from participation in the Program pursuant to Section 5 of these Program Terms, below. You will not be entitled
to compensation from if Cash Back Credit is forfeited for any reason.
4. Monitoring Your Billing Statement; Questions about Cash Back Credit
It is Your responsibility to regularly monitor Your Card Account and billing statements. If You believe there has been an error in connection with Your
Cash Back Credit, You must report the possible error to Mission Lane promptly, but no later than 60 days after the date of the billing statement that you
believe reflects the error. After this 60-day period, Your Cash Back Credit as shown on such billing statement shall be deemed accurate. If You have any
questions regarding Your Cash Back Credit, You may contact Us at support@missionlane.com.
2/4

3/9/2021

5. Review and Disquali cation
We reserve the right to review Your Card Account for compliance with these Program Terms. In the event the review reveals any discrepancy in the
Cash Back earned and credited, Cash Back Credit may be delayed until such discrepancies are resolved. We reserve the right to determine that you are
no longer eligible for participation in the Program and disqualify You from the Program if Your Card Account is not in Good Standing, You provided
false information in connection with Your Card Account or the Program, or You violated any of the Program Terms or Your Cardholder Agreement.
Such disqualification may be temporary or permanent and may result in the forfeiture of any accumulated Cash Back.
6. Changes to the Program
We may, from time to time and in Our sole discretion, amend, delete or add to the terms of these Program Terms and may change or limit any aspect of
the Program and its restrictions, benefits or features, in whole or in part. Such changes may be retroactive as allowed by applicable law. Changes may
include, but are not limited to, the definition of Qualifying Purchases, the availability of Cash Back Credit, the imposition of an annual Program
membership fee or the increase of any fees associated with the Program, or the percentage applied to calculate the amount of Cash Back, the method
used to calculate the amount of Cash Back, or the amount of Cash Back Credit that may be earned. We will notify you and post any such changes to the
Program Terms on the Website. It is Your responsibility to review the Program Terms for any such changes.
7. Termination
We reserve the right to suspend or terminate the Program and the Program Terms at any time. Our decisions regarding the Program are final. If the
Program is terminated, You will be notified of the date on which Your Card Account will cease earning Cash Back Credit.
8. Taxes
You are responsible for any tax liability You incur related to Your participation in the Program. Please consult Your tax advisor concerning any such
income or other tax consequences.
9. Incorporation of Cardholder Agreement
The terms of Your Cardholder Agreement are incorporated into the Program Terms for purposes of assignment, communication, governing law,
enforcement rights and dispute resolution, including the arbitration provision contained therein. Please read your Cardholder Agreement for these
important provisions.
10. Program Assistance and Website
These Program Terms are available at www.missionlane.com/cash-back-terms. If You have questions, you can contact us at support@missionlane.com
or call us at (855) 790-8860.

3/4

3/9/2021

11. De nitions
"Card" means Your Mission Lane Cash Back Visa® credit card issued by TAB Bank and serviced by Mission Lane.
"Card Account" means Your credit card account accessed by use of Your Card.
"Cardholder Agreement" means the agreement between You and TAB Bank which sets forth the terms governing Your Card Account, as
modified, amended or changed by TAB Bank from time to time.
"Cash Back" and "Cash Back Credit" means an amount automatically applied as a credit to the balance on Your billing statement in accordance
with these Program Terms.
"Good Standing" means that Your Card Account is not in default, as explained in the Cardholder Agreement, or over the credit limit, and you are
in full compliance with the terms of the Cardholder Agreement.
"Mission Lane" means Mission Lane LLC, the servicer of Your Card and Card Account.
"Net Qualifying Purchase(s)" means the total of all new Qualifying Purchases You make with Your Card during a billing cycle, minus any credits
posted to Your Card Account during the same billing cycle for returns, chargebacks, or any other adjustments.
"Program" means the Mission Lane Cash Back Program described in the Program Terms.
"Program Terms" means these Mission Lane Cash Back Program Terms, as amended from time to time.
"Qualifying Purchase(s)" means the dollar amount of purchases of goods or services You make with Your Card, including sales tax, rounded up or
down, as applicable to the nearest whole dollar amount. Fees, interest charges, cash advances, balance transfers, purchases of traveler's checks,
reloading of prepaid cards or other cash equivalents, and purchases made when Your Card Account is not in Good Standing, are NOT "Qualifying
Purchases." We reserve the right to determine in Our sole discretion whether a particular transaction is a Qualifying Purchase.
"TAB Bank" means Transportation Alliance Bank, Inc., a bank chartered under the laws of the state of Utah and headquartered in Ogden, Utah, the
issuer of Your Card.
"We", "Our", and "Us" means TAB Bank as the issuer of Your Card, or Mission Lane in its capacity as servicer of Your Card, and any assignee
or successor of either of their respective rights.
"Website" means www.missionlane.com/cash-back-terms
"You" and "Your" means the person to whom the Card is issued.

4/4

